Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




   NATIONAL GOVERNMENT
    SERVICES, INC., PAID
  UNALLOWABLE LOWER LIMB
    PROSTHETICS CLAIMS


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                      October 2013
                                                      A-07-13-05039
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                          EXECUTIVE SUMMARY

 National Government Services, Inc., paid approximately $1.5 million for lower limb
 prosthetics claims that did not meet Medicare coverage requirements for the period
 January 1, 2009, through September 30, 2012.

WHY WE DID THIS REVIEW

Previous Office of Inspector General reviews found that Durable Medical Equipment (DME)
Medicare Administrative Contractors (MACs) did not ensure that lower limb prosthetic claims
met the coverage requirements in local coverage determinations (LCDs). LCDs are decisions by
DME MACs on whether to cover a particular service in accordance with section 1862(a)(1)(A)
of the Social Security Act (the Act) and are published to provide guidance to the public and the
medical community. In response to one of our reviews, on March 5, 2012, the Centers for
Medicare & Medicaid Services (CMS) issued a Technical Direction Letter (TDL) directing the
DME MACs to develop claim-processing edits for all requirements in LCDs for lower limb
prostheses. National Government Services, Inc. (NGS), is one of the DME MACs. This review
is part of a series of reviews to determine the compliance of DME MACs with LCD
requirements for lower limb prostheses.

The objective of this review was to determine whether NGS processed and paid claims for lower
limb prostheses according to LCD requirements for the period January 1, 2009, through
September 30, 2012.

BACKGROUND

Section 1862(a)(1)(A) of the Act requires that, to be paid by Medicare, a service or an item must
be reasonable and necessary for the diagnosis or treatment of illness or injury or improve the
functioning of a malformed body member. Medicare Part B provides for the coverage of durable
medical equipment, prosthetics, orthotics, and supplies (DMEPOS).

A lower limb prosthesis is an artificial replacement for any or all parts of a leg; it provides an
individual who has an amputated limb with the ability to perform functional tasks, particularly
walking, that may not be possible without the device. For a lower limb prosthesis to be covered
by Medicare, the patient is expected to reach or maintain a defined functional level and be
motivated to ambulate.

When submitting claims to DME MACs, suppliers use Healthcare Common Procedure Coding
System (HCPCS) codes. Each claim can have multiple lines of service, each of which represents
a different component (e.g., foot, ankle) of the lower limb prosthesis provided by the supplier.
Lines of service are billed using HCPCS codes, many of which require a modifier code to
indicate such things as left or right limb and functional level. NGS published LCD L27013 for
lower limb prostheses. The LCD contained coverage requirements, such as the functional levels
required for certain components, socket inserts that are allowed only in certain quantities,
unallowable combinations of HCPCS codes, and the DMEPOS suppliers’ documentation
requirements. Medicare policy instructs DME MACs to apply the LCD coverage requirements


National Government Services, Inc., Paid Unallowable Lower Limb Prosthetics Claims (A-07-13-05039)   i
to claims on either a prepayment or postpayment basis. NGS uses claim-processing edits to
apply LCD requirements for lower limb prostheses on a prepayment basis. Prepayment edits are
programming logic within a claim-processing system that are designed to evaluate claims and
prevent payment for errors such as noncovered, incorrectly coded, or inappropriately billed lines
of service.

WHAT WE FOUND

NGS paid $1,461,464 for 770 lines of service for lower limb prostheses from January 1, 2009,
through September 30, 2012, that did not meet LCD requirements, consisting of:

    •   $1,418,407 for 682 lines of service that had missing or incorrect functional level
        modifiers and

    •   $43,057 for 88 lines of service that had unallowable combinations of components.

When NGS paid the claims for these lines of service, it did not have claim-processing edits in
place to evaluate whether they met all the LCD requirements. NGS implemented and improved
edits throughout our audit period, and in response to CMS’s TDL, to address the LCD
requirements. Of the 770 lines of service we identified that did not meet LCD requirements,
NGS paid for 29 lines of service after implementation of its latest updated edits.

WHAT WE RECOMMEND

We recommend that NGS:

    •   recover $1,461,464 in identified overpayments for lines of service for lower limb
        prostheses that did not meet LCD requirements and

    •   continue to monitor the edits it developed and updated in response to CMS’s March 2012
        TDL to ensure that the edits are functioning correctly.

AUDITEE COMMENTS

In written comments on our draft report, NGS stated that it had addressed our recommendations.
Specifically, NGS said that it had issued overpayment requests for all of the claim lines we had
identified and that it had to date recouped $1,365,822 of the $1,461,464 in identified
overpayments. NGS also described corrective actions that it had taken with respect to
implementing and improving its claim-processing edits and added that, as part of its standard
practices, it would review existing edits to determine their effectiveness within the claim-
processing system.




National Government Services, Inc., Paid Unallowable Lower Limb Prosthetics Claims (A-07-13-05039)   ii
                                                     TABLE OF CONTENTS


INTRODUCTION ..................................................................................................................... 1

           Why We Did This Review ............................................................................................. 1

           Objective ........................................................................................................................ 1

           Background .................................................................................................................... 1
                 Medicare Coverage of Lower Limb Prostheses ................................................. 1
                 Durable Medical Equipment Medicare Administrative Contractors ................. 2
                 Local Coverage Determinations and Claim-Processing Edits ........................... 2

           How We Conducted This Review.................................................................................. 3

FINDINGS ................................................................................................................................. 3

           Missing or Incorrect Functional Level Modifiers .......................................................... 4

           Unallowable Combinations of Components .................................................................. 4

RECOMMENDATIONS ........................................................................................................... 4

AUDITEE COMMENTS........................................................................................................... 4

APPENDIXES

           A: Related Office of Inspector General Reports ........................................................... 5

           B: Audit Scope and Methodology................................................................................. 6

           C: Auditee Comments ................................................................................................... 7




National Government Services, Inc., Paid Unallowable Lower Limb Prosthetics Claims (A-07-13-05039)                                                iii
                                           INTRODUCTION

WHY WE DID THIS REVIEW

Previous Office of Inspector General (OIG) reviews (see Appendix A) found that Durable
Medical Equipment (DME) Medicare Administrative Contractors (MACs) did not ensure that
lower limb prosthetic claims met the coverage requirements in local coverage determinations
(LCDs). LCDs are decisions by DME MACs on whether to cover a particular service in
accordance with section 1862(a)(1)(A) of the Social Security Act (the Act) and are published to
provide guidance to the public and the medical community. In response to one of our reviews,
on March 5, 2012, the Centers for Medicare & Medicaid Services (CMS) issued a Technical
Direction Letter (TDL) directing the DME MACs to develop claim-processing edits for all
requirements in LCDs for lower limb prostheses. National Government Services, Inc. (NGS),
is one of the DME MACs. This review is part of a series of reviews to determine the compliance
of DME MACs with LCD requirements for lower limb prostheses (see Appendix A).

OBJECTIVE

Our objective was to determine whether NGS processed and paid claims for lower limb
prostheses according to LCD requirements for the period January 1, 2009, through
September 30, 2012.

BACKGROUND

Medicare Coverage of Lower Limb Prostheses

Under Title XVIII of the Act, the Medicare program provides health insurance for people aged
65 and over, people with disabilities, and people with permanent kidney disease. CMS
administers the Medicare program. Section 1862(a)(1)(A) of the Act requires that, to be paid by
Medicare, a service or an item must be reasonable and necessary for the diagnosis or treatment of
illness or injury or improve the functioning of a malformed body member.

According to the Act, Medicare Part B provides for the coverage of durable medical equipment,
prosthetics, orthotics, and supplies (DMEPOS). A lower limb prosthesis is an artificial
replacement for any or all parts of a leg; it provides an individual who has an amputated limb
with the ability to perform functional tasks, particularly walking, that may not be possible
without the device. A prosthesis joins the beneficiary’s residual limb at one of several sites, such
as the hip, knee, ankle, or foot.

For a lower limb prosthesis to be covered by Medicare, the patient is expected to reach or
maintain a defined functional level and be motivated to ambulate. Functional levels range from
level 0 to level 4 and are indicated on prosthetic claims by modifiers K0 to K4. A K0 functional
level modifier identifies a beneficiary who does not have the ability or potential to ambulate or
transfer safely with or without assistance, and a prosthesis does not enhance his or her quality of
life or mobility. In contrast, a K4 functional level modifier is for a beneficiary who has the




National Government Services, Inc., Paid Unallowable Lower Limb Prosthetics Claims (A-07-13-05039)   1
ability or potential for prosthetic ambulation that exceeds basic ambulation skills; this level is
typical of the prosthetic demands of the child, active adult, or athlete.

Durable Medical Equipment Medicare Administrative Contractors

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 required, among
other things, the use of MACs to process Medicare claims. CMS contracted with four DME
MACs to process and pay DMEPOS claims. Each DME MAC processes claims for one of four
jurisdictions, known as Jurisdictions A, B, C, and D. NGS is the DME MAC for Jurisdiction B;
it processes DMEPOS claims in seven States. 1

When submitting claims to DME MACs, suppliers use Healthcare Common Procedure Coding
System (HCPCS) codes. 2 Each claim can have multiple lines of service, each of which
represents a different component (e.g., foot, ankle) of the lower limb prosthesis provided by the
supplier. Lines of service are billed using HCPCS codes, many of which require a modifier
code 3 to indicate such things as left or right limb and functional level.

Local Coverage Determinations and Claim-Processing Edits

According to chapter 13, section 13.1.3, of the Medicare Program Integrity Manual,
Pub. No. 100-08, LCDs are decisions by DME MACs on whether to cover a particular service in
accordance with section 1862(a)(1)(A) of the Act. Section 13.1.3 also states: “The LCDs
specify under what clinical circumstances a service is considered to be reasonable and necessary.
They are administrative and educational tools to assist providers in submitting correct claims for
payment. Contractors publish LCDs to provide guidance to the public and medical community
within their jurisdictions.”

Throughout each year of our audit period, NGS had an LCD in effect for lower limb prostheses,
LCD L27013. The LCD contained coverage requirements, such as the required functional levels
for certain components, restrictions on the quantities of socket inserts, 4 unallowable
combinations of HCPCS codes, and the DMEPOS suppliers’ documentation requirements.

Additionally, chapter 13, section 13.10, of the Medicare Program Integrity Manual states that
DME MACs should apply the coverage requirements documented in LCDs to claims on either a
prepayment or postpayment basis. NGS uses claim-processing edits to apply the LCD
requirements for lower limb prostheses on a prepayment basis. Prepayment edits are

1
    Jurisdiction B States are Illinois, Indiana, Kentucky, Michigan, Minnesota, Ohio, and Wisconsin.
2
  HCPCS is a medical code set used throughout the health care industry as a standardized system for describing and
identifying health care procedures, equipment, and supplies in health care transactions.
3
 A modifier is a two-position code reported with a HCPCS code and is designed to give Medicare and commercial
payers additional information needed to process a claim.
4
 A socket insert is used in the socket of the prosthesis to protect the beneficiary’s limb and to allow for
modifications to the fit of the prosthesis due to fluctuation in the size of the limb.



National Government Services, Inc., Paid Unallowable Lower Limb Prosthetics Claims (A-07-13-05039)            2
programming logic within a claim-processing system that is designed to evaluate claims and
prevent payment for such errors as noncovered, incorrectly coded, or inappropriately billed lines
of service.

CMS issued its March 5, 2012, TDL to all DME MACs in response to OIG’s report issued in
August 2011 (see Appendix A). CMS’s TDL directed DME MACs to work collaboratively to
develop a uniform set of edits based on all of the LCD requirements and to implement these edits
in the local claim-processing system at each DME MAC no later than July 1, 2012.

HOW WE CONDUCTED THIS REVIEW

NGS paid approximately $322.8 million for 529,351 lines of service (124,154 claims) for lower
limb prostheses from January 1, 2009, through September 30, 2012. We developed
programming logic to analyze these lines of service to determine whether they met LCD
requirements. Our analyses focused on the requirements that could be tested through data
analytics without the need to obtain additional documentation from suppliers. We did not
conduct a medical review to determine whether the services were medically necessary.

We assessed the reliability of the data from CMS’s National Claims History file by electronically
testing required data elements and by checking the basic reasonableness of the data with NGS.
We determined that these data were sufficiently reliable for the purposes of this report.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our audit scope and methodology.

                                               FINDINGS

NGS paid $1,461,464 for 770 lines of service for lower limb prostheses from January 1, 2009,
through September 30, 2012, that did not meet LCD requirements, consisting of:

    •   $1,418,407 for 682 lines of service that had missing or incorrect functional level
        modifiers and

    •   $43,057 for 88 lines of service that had unallowable combinations of components.

Chapter 13, section 13.10, of the Medicare Program Integrity Manual states that DME MACs
should apply the coverage requirements documented in LCDs to claims on either a prepayment
or postpayment basis. When NGS paid the claims for these lines of service, it did not have
claim-processing edits in place to evaluate whether they met all the LCD requirements. NGS
implemented and improved edits throughout our audit period, and in response to CMS’s TDL, to
address the LCD requirements. Of the 770 lines of service we identified that did not meet LCD



National Government Services, Inc., Paid Unallowable Lower Limb Prosthetics Claims (A-07-13-05039)   3
requirements, NGS paid for 29 lines of service after implementation of its latest updated edits.
NGS did not reprocess the 29 claims made prior to the implemented and improved edits to
ensure that they were in accordance with the LCD.

MISSING OR INCORRECT FUNCTIONAL LEVEL MODIFIERS

LCD L27013 states that to receive certain lower limb prostheses, individuals should attain a
certain functional level, and the functional level modifier code must be included on the line of
service. For example, HCPCS code L5930 is for a high-activity knee frame. A beneficiary who
receives this knee frame must be able to attain a functional level of 4, and Medicare claims with
a line of service for L5930 must include the K4 modifier code. We identified instances in which
NGS processed and paid for L5930 lines of service that did not have a modifier code or that had
a modifier code other than K4 (indicating a lower functional level). In total, NGS paid
$1,418,407 for 682 lines of service that had a missing or incorrect functional level modifier code.
Of the 682 lines of service, 514 lines had an incorrect functional level modifier (K3-K0), and 168
lines were missing a functional level modifier.

UNALLOWABLE COMBINATIONS OF COMPONENTS

LCD L27013 identifies certain combinations of components that are not allowed on lower limb
prostheses. For example, HCPCS code L5500 is for an initial below-the-knee prosthesis. When
this prosthesis is provided to a beneficiary, certain prosthetic additions, such as HCPCS code
L5629 (below-the-knee acrylic socket), are not allowable. We identified instances in which
NGS processed and paid for both L5500 and L5629 lines of service. In total, NGS paid $43,057
for 88 lines of service that had unallowable combinations of components.

                                       RECOMMENDATIONS

We recommend that NGS:

    •   recover $1,461,464 in identified overpayments for lines of service for lower limb
        prostheses that did not meet LCD requirements and

    •   continue to monitor the edits it developed and updated in response to CMS’s March 2012
        TDL to ensure that the edits are functioning correctly.

                                       AUDITEE COMMENTS

In written comments on our draft report, NGS stated that it had addressed our recommendations.
Specifically, NGS said that it had issued overpayment requests for all of the claim lines we had
identified and that it had to date recouped $1,365,822 of the $1,461,464 in identified
overpayments. NGS also described corrective actions that it had taken with respect to
implementing and improving its claim-processing edits and added that, as part of its standard
practices, it would review existing edits to determine their effectiveness within the claim-
processing system. NGS’s comments are included in their entirety as Appendix C.




National Government Services, Inc., Paid Unallowable Lower Limb Prosthetics Claims (A-07-13-05039)   4
       APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                                                                                                      Date
                        Report Title                                    Report Number                Issued
Questionable Billing by Suppliers of Lower Limb Prostheses              OEI-02-10-00170              8/2011

Lower Limb Prosthetics Claims Paid to Premier Prosthetics                A-07-12-05026           12/2012
and Orthotics Were Not Always Supported by Adequate
Documentation

Lower Limb Prosthetics Claims Paid to Ozark Prosthetics                  A-07-12-05029               4/2013
and Orthotics Were Not Always Supported by Adequate
Documentation

CGS Administrators, LLC, Paid Unallowable Lower Limb                     A-06-12-00055               7/2013
Prosthetics Claims

Durable Medical Equipment Claims Paid by Noridian                        A-07-12-05035               8/2013
Healthcare Solutions, LLC, Did Not Always Meet the
Requirements of the Local Coverage Determination for
Lower Limb Prostheses

Durable Medical Equipment Claims Paid by National                        A-07-13-05040               8/2013
Heritage Insurance Company, Inc., Did Not Always Meet the
Requirements of the Local Coverage Determination for
Lower Limb Prostheses




National Government Services, Inc., Paid Unallowable Lower Limb Prosthetics Claims (A-07-13-05039)       5
                   APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

NGS paid $322,841,681 for 529,351 lines of service (124,154 claims) for lower limb prostheses
for the period January 1, 2009, through September 30, 2012. Our review focused on whether
NGS met Medicare requirements by paying only those lines of service for lower limb prosthetics
that were in accordance with its LCD on lower limb prostheses. We did not conduct a medical
review to determine whether the services were medically necessary. We limited our review of
internal controls to those related to our audit objective.

We conducted our audit work, which included contacting NGS in Indianapolis, Indiana, from
January through March 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and DME MAC guidance;

    •   interviewed staff at NGS to gain an understanding of its procedures for the processing
        and payment of DMEPOS claims for lower limb prostheses;

    •   used CMS’s National Claims History file to identify all DMEPOS claims processed and
        paid by NGS during the period January 1, 2009, through September 30, 2012;

    •   developed programming logic to analyze the lines of service, focusing on the LCD
        requirements that could be tested through data analytics without the need to obtain
        additional documentation from suppliers; and

    •   discussed the results of our review and provided detailed data on our findings to NGS
        officials on May 10, 2013.

We assessed the reliability of the data from CMS’s National Claims History file by electronically
testing required data elements and by checking the basic reasonableness of the data with NGS.
We determined that these data were sufficiently reliable for the purposes of this report.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




National Government Services, Inc., Paid Unallowable Lower Limb Prosthetics Claims (A-07-13-05039)   6
                                    APPEN DIX C: AUDITEE COMMENTS 




         cf~National G~vernment
            ~             serv1ces.
                                                                                                                   MEDICARE
              8115 Knue Road 

              Indianapolis. IN 46250 


              www. NGSMedicare.com


              September 3, 2013



              ReportNwnber: A-07-13 -05039

              Patrick Cogley
              Office of Audit Services, Region VII
              60 I East 12'h Street, Room 0429
              Kansas City, MO 64106


              Dear Mr. Cogley:

              National Government Services (NGS) appreciates the opportunity to review and comment on the above
              referenced draft audit report. Responses to the recommendations made by the Office of Inspector General
              are included below.

                   I . 	 Recommendation:
                         Recover $ 1,461 ,464 i n identified overpayments for lines of service for lower limb prostheses that
                         did not meet the LCD requirements.

                       NGS Response: During the audit period of January 1, 2009 through September 30,2012, NGS
                       paid associated services for Lower Limb Prosthetics in the amount of $322,841 ,68 1. The audit
                       identified services with a corresponding payment amount of $ 1,461 ,464 (0.5%) that did not meet
                       the LCD requirements. Prior to the publication of this report, NGS had issued overpayment
                       requests for all of the identified claim lines. To date, NGS has recouped $ 1,365,822 on
                       receivables associated with the claim lines in question.

                  2. 	 Recommendation:
                       Continue to monitor the edits developed and updated in response to CMS's March 2012 TDL to
                       ensure that the edits are functioning correctly.

                       NGS Response: As noted in the report, NGS implemented and improved edits throughout the
                       audit period to address the LCD requirements to the extent afforded by the claims processing
                       system. As part of our standard practice we will review existing edits to determine the
                       effectiveness of the edits within the claims processing system.

              [n conclusion, the Jurisdiction B DM E MAC has addressed all ofthe recommendatio ns outlined in the
              OlG report. We wi ll continue edit evaluation practices to help ensure lines ofservice for lower limb
              prostheses are processed in accordance with CMS's March 2012 TDL and compliant with guidelines




National Government Se rvices, Inc., Paid Unallowable Lowe r L imb P rosthetics Cla ims (A -07-13-05039}                        7
        +~National Government
           )Ill(           services. ·
                                                                                                            MEDICARE
              8115 Knue Road 

              Indianapolis, IN 46250 


             www.NGSMedicare.com


              outlined in the associated Local Coverage Determination to the extent possible afforded by the DME 

              claims processing system. 


              Sincerely,



              David Barnett 

              Jurisdiction B DME MAC Program Manger 





National Government Services, Inc., Paid Unallowable Lower Limb Prosthetics Claims (A-0 7-13-05039}                    8
